HHS/OIG-Audit--"Report on Review of Training Costs, New York State Department of Social Services, Albany, New York for the Period April 1, 1987 to March 31, 1988, (A-02-91-02002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Review of Training Costs, New York State Department of Social Services, Albany, New York for the Period
April 1, 1987 to March 31, 1988," (A-02-91-02002)
July 1, 1992
Complete
Text of Report is available in PDF format (3.39 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of training costs at New York's Department of Social Services (NYSDSS)
for the period April 1, 1987 to March 31, 1988. Based on our review we are recommending that $4,260,974 of the training
costs claimed and $452,573 of the administrative costs claimed be refunded to the Federal Government.